APPENDIX

APPENDIX
Opinion of the United States Court of Appeals for the Eleventh Circuit,
United States v. Bruce, No. 18-10969
(11th Cir. October 8, 2020) ....................................................................... ……………A-1
U.S. District Court of the Southern District of Florida Order,
filed December 5, 2017… ........................................................................................... A-2

A-1

United States v. Bruce, 977 F.3d 1112 (2020)
28 Fla. L. Weekly Fed. C 1975

977 F.3d 1112
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Toddrey BRUCE, Defendant-Appellant.
No. 18-10969
|
(October 8, 2020)
Synopsis
Background: Defendant pled guilty to unlawful possession
of a firearm after the United States District Court for the
Southern District of Florida, No. 17-20530-CR-Scola, Robert
N. Scola, J., 2017 WL 6033423, denied his motion to suppress
evidence of his gun and incriminating statements. Defendant
appealed.

Holdings: The Court of Appeals, Grant, Circuit Judge, held
that:
anonymous tip from 911 caller was reliable, for purposes of
providing reasonable suspicion to justify investigatory stop;
reasonable suspicion generated by caller had not dissipated
by time officers arrived on the scene; and
the District Court's alleged failure to recognize that police
officers performed investigatory stop while on curtilage of a
home did not amount to plain error.
Affirmed.
Martin, Circuit Judge, filed dissenting opinion.
Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion.
Attorneys and Law Firms
*1115 Aileen Cannon, Emily M. Smachetti, U.S. Attorney
Service - SFL, MIAMI, FL, Robert Benjamin Cornell, U.S.
Attorney's Office, FORT LAUDERDALE, FL, for Plaintiff Appellee.

Ricardo Bascuas, University of Miami School of Law,
CORAL GABLES, FL, Sara Wilson Kane, Federal Public
Defender's Office, MIAMI, FL, Michael Caruso, Federal
Public Defender, MIAMI, FL, for Defendant - Appellant.
Appeal from the United States District Court for the Southern
District of Florida, D.C. Docket No. 1:17-cr-20530-RNS-1
Before MARTIN, GRANT, and LAGOA, Circuit Judges.
Opinion
GRANT, Circuit Judge:
At 3:20 a.m., an unnamed 911 caller reported that men were
outside arguing next to a white car. One had a gun. The caller
warned that responding officers should be careful because
there “might be shooting any minute from now.” Minutes later
officers were on scene, lights flashing, in an area of MiamiDade County that accounted for a disproportionate number
of their patrol area's 911 calls. They saw two men sitting
in a car at the address the caller had specified. The officers
approached cautiously, guns drawn. One of the men in the
car—Toddrey Bruce, who had a prior felony conviction—
tried to flee. An officer tackled him, and a loaded pistol fell
from Bruce's waist. The police arrested him on a felon-inpossession charge.
Bruce now argues that the police should not have stopped
him because they lacked reasonable suspicion that he had
engaged in criminal activity. But given the details of the 911
call, the time of day, and the high-crime area, the officers
could reasonably suspect that Bruce had engaged in criminal
activity. Bruce also argues, for the first time on appeal, that
the police needed more than reasonable suspicion because
they stopped him in an area that was an extension of a home,
known as curtilage. But because the facts before us do not
show he was within the curtilage of his home—or, really,
anyone's home—Bruce's new argument does not help him.
Seeing no error, we affirm the district court's judgment.

I.
The recorded 911 call came in a little after 3:00 a.m. An
unnamed man said that he saw a “disturbance” in the front
yard of a “drug house”—and that one of the men involved had
a gun. When the 911 operator asked what was happening “as
we speak right now,” the caller replied that “they're arguing
in the front yard.” The caller described the person holding

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Bruce, 977 F.3d 1112 (2020)
28 Fla. L. Weekly Fed. C 1975

the gun as a black man dressed in all black, and said that he
was standing next to a white car in front of the house. Before
the call ended, the tipster warned that the police should use
caution because there “might be shooting any minute.”
Dispatch quickly relayed the key parts of this call to the
police. The dispatch message told police (in shorthand) about
the “argument in front yard, and black male standing next
to white vehicle, and this subject holding handgun.” Officers
were also given the address in the Perrine neighborhood
where the disturbance was taking place. Several officers were
nearby because Perrine accounted for about half of the 911
calls for their zone, even though the neighborhood was only
a small portion of the entire area they patrolled. Within five
minutes, flashing police lights were at the scene.
*1116 The approaching officers saw two men in the white
car at the specified address. For safety reasons, they drew
their guns as they drew near to the car. Their priority, as one
officer explained, was “officer safety” and the safety of people
who might be “gathered in the area.” When they told the men
to exit the car, Bruce tried to make a break for it. One of
the officers grabbed him, and in the scuffle a loaded semiautomatic pistol dropped from Bruce's waistband. Though
officers soon discovered that Bruce and his associate were
likely arguing with someone on the phone rather than with
each other, they also found out that Bruce was a felon—
meaning that it was illegal for him to carry a gun.
Bruce was charged with unlawful possession of a firearm
under 18 U.S.C. § 922(g)(1). He moved to suppress evidence
of his gun, as well as incriminating statements he made after
his arrest. The district court denied the motion; it found
that the police were conducting a valid investigatory stop.
After the court reached its decision, Bruce pleaded guilty but
reserved the right to appeal the lawfulness of the investigatory
stop. He now exercises that option.

II.
We review the district court's legal conclusions on Fourth
Amendment questions de novo, viewing all facts “in the
light most favorable to the prevailing party below.” United
States v. Lewis, 674 F.3d 1298, 1303 (11th Cir. 2012) (citation
omitted). We review for plain error any theories supporting a
motion to suppress that were not raised below. United States
v. Young, 350 F.3d 1302, 1305 (11th Cir. 2003). “For a plain
error to have occurred, the error must be one that is obvious

and is clear under current law.” United States v. Madden, 733
F.3d 1314, 1322 (11th Cir. 2013) (citation omitted).

III.
As mentioned at the outset, this case presents two main issues.
We first decide whether the officers’ investigatory stop was
justified based on a reasonable suspicion of criminal activity.
Given the 911 call reporting a gun-wielding man arguing in
the dark hours of the morning, we think the answer is yes.
We then consider Bruce's argument that the officers needed
more than reasonable suspicion because the stop occurred on
the curtilage of a home. This new and fact-intensive argument
does not survive plain error review, so it does not disturb our
previous conclusion that the investigatory stop was justified.

A.
The Fourth Amendment secures the right of the people
“against unreasonable searches and seizures.” U.S. Const.
amend. IV. Brief investigative stops have long been
recognized as reasonable, at least under appropriate
circumstances. Terry v. Ohio, 392 U.S. 1, 30, 88 S.Ct. 1868,
20 L.Ed.2d 889 (1968). Officers “may briefly detain a person
as part of an investigatory stop if they have a reasonable
articulable suspicion based on objective facts that the person
has engaged in criminal activity.” United States v. Blackman,
66 F.3d 1572, 1576 (11th Cir. 1995).
To have reasonable suspicion, an officer needs “at least a
minimal level of objective justification for making the stop.”
Illinois v. Wardlow, 528 U.S. 119, 123, 120 S.Ct. 673, 145
L.Ed.2d 570 (2000). “Although a mere hunch does not create
reasonable suspicion, the level of suspicion the standard
requires is considerably less than proof of wrongdoing
by a preponderance of the evidence, and obviously less
than is necessary for probable cause.” *1117 Navarette v.
California, 572 U.S. 393, 397, 134 S.Ct. 1683, 188 L.Ed.2d
680 (2014) (quotation marks and citations omitted). We look
to the totality of the circumstances to decide if the police
had reasonable suspicion. See United States v. Lindsey, 482
F.3d 1285, 1290 (11th Cir. 2007). This reasonable-suspicion
inquiry ultimately hinges on “both the content of information
possessed by police and its degree of reliability.” Alabama v.
White, 496 U.S. 325, 330, 110 S.Ct. 2412, 110 L.Ed.2d 301
(1990).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Bruce, 977 F.3d 1112 (2020)
28 Fla. L. Weekly Fed. C 1975

The Supreme Court has been clear that “an anonymous tip
can demonstrate ‘sufficient indicia of reliability to provide
reasonable suspicion to make an investigatory stop.’ ”
Navarette, 572 U.S. at 397, 134 S.Ct. 1683 (quoting White,
496 U.S. at 327, 110 S.Ct. 2412) (punctuation omitted). So
we first review the reliability of the tip here—the 911 call
—and then consider how it informs the reasonable-suspicion
analysis on these facts.

1.
Bruce insists that the officers had no reason at all to find the
anonymous tip reliable, but that's just not so. For purposes of a
brief investigatory detention like the one we consider here, 1
an anonymous 911 call giving eyewitness details of a realtime event is reliable enough “to credit the caller's account.”
Navarette, 572 U.S. at 398, 134 S.Ct. 1683; see also, e.g.,
United States v. Mosley, 878 F.3d 246, 253 (8th Cir. 2017);
United States v. Edwards, 761 F.3d 977, 984 (9th Cir. 2014).
The Supreme Court in Navarette v. California considered a
tip much like the one Bruce challenges. The unnamed 911
caller there reported that a silver pickup truck (identified by
its make, model, and plate number) had just run her off the
road. Navarette, 572 U.S. at 395, 134 S.Ct. 1683. That “call
bore adequate indicia of reliability” because the caller (1)
“claimed eyewitness knowledge” of the event, (2) provided a
“contemporaneous report,” and (3) used the 911 emergency
system. Id. at 398–400, 134 S.Ct. 1683. Each of those factors
is also present here.
To start, the caller claimed eyewitness knowledge of the
event. He told the 911 operator that “the person that I
see out there with a gun is a guy” wearing “full black,”
gripping a gun, and arguing with another man. That matters
—a key reason to worry about an anonymous tip is that,
standing alone, it “seldom demonstrates the informant's basis
of knowledge.” White, 496 U.S. at 329, 110 S.Ct. 2412. By
itself, a tip is not reliable if it is a “bare report of an unknown,
unaccountable informant who neither explained how he knew
about the gun nor supplied any basis for believing he had
inside information.” Florida v. J.L., 529 U.S. 266, 271, 120
S.Ct. 1375, 146 L.Ed.2d 254 (2000). But where, as here, the
caller gives a first-hand account, that “basis of knowledge
lends significant support to the tip's reliability”—even where
the caller's identity is unknown. Navarette, 572 U.S. at 399,
134 S.Ct. 1683. 2

*1118 The caller also gave a contemporaneous report,
describing events as he was seeing them. He told the 911
operator that he was reporting the argument “as we speak right
now.” The dispatch message communicated this fact to the
officers by using a progressive verb tense to describe Bruce's
actions: “standing next to [the] white vehicle” and “holding
[a] handgun.” And when officers responded a few minutes
later, they confirmed that two men were near (by that time,
inside) the white car at the address provided, which itself
suggests that the caller reported in real-time. “That sort of
contemporaneous report has long been treated as especially
reliable.” Id.
Finally, the fact that the tipster called 911 to report the
incident proves to be another “indicator of veracity” under
Navarette. Id. at 400, 134 S.Ct. 1683. A 911 call can be
traced if necessary, and can also be recorded (as it was here).
See id. at 400–01, 134 S.Ct. 1683. These tools diminish the
chance that a lying tipster could hide behind the cloak of
anonymity. And if that were not enough, a caller can be
prosecuted for providing a false tip. See id. at 400, 134 S.Ct.
1683; Fla. Stat. § 817.49. That does not necessarily mean
that every 911 caller is telling the truth—we assume that
some do not. But it does mean that a “reasonable officer
could conclude that a false tipster would think twice” before
calling 911. Navarette, 572 U.S. at 401, 134 S.Ct. 1683. Law
enforcement would be hamstrung if it could not ordinarily
“rely on information conveyed by anonymous 911 callers.”
United States v. Holloway, 290 F.3d 1331, 1339 (11th Cir.
2002).
Those three factors made the tip reliable on its own, without
the police independently seeing any criminal activity. The
same was true in Navarette, where the police never saw the
reckless driving that the tipster alleged. See 572 U.S. at 403–
04, 134 S.Ct. 1683; see also United States v. McCants, 952
F.3d 416, 423 (3d Cir. 2020) (“The absence of corroborative
evidence, the Court held, did not negate the reasonable
suspicion created by the 911 call.” (citing Navarette, 572
U.S. at 403–04, 134 S.Ct. 1683)). To be sure, if a tip is
not trustworthy on its own or “has a relatively low degree
of reliability, more information will be required to establish
the requisite quantum of suspicion than would be required
if the tip were more reliable.” White, 496 U.S. at 330, 110
S.Ct. 2412. Here, though, police could depend on the tip for
purposes of a short investigative stop—especially because the
stakes were so high with the report of a heated exchange and
fear of a gunfight. Cf. Holloway, 290 F.3d at 1339 (“[W]hen
an emergency is reported by an anonymous caller, the need

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Bruce, 977 F.3d 1112 (2020)
28 Fla. L. Weekly Fed. C 1975

for immediate action may outweigh the need to verify the
reliability of the caller.” (emphasis in original)).

2.
A trustworthy tip, though, is not always enough: “Even a
reliable tip will justify an investigative stop only if it creates
reasonable suspicion that ‘criminal activity may be afoot.’ ”
Navarette, 572 U.S. at 401, 134 S.Ct. 1683 (quoting Terry,
392 U.S. at 30, 88 S.Ct. 1868). The tip in this case does
just that. There is no doubt, we think, that police could have
performed an investigative stop if Bruce had been gesturing
with his firearm during a heated argument when they arrived.
The question is whether the reasonable suspicion generated
by the reliable tip had dissipated by *1119 the time the
officers arrived on the scene. And the answer is no.
It was not unreasonable for the officers to suspect that the
two men who were sitting in a car that matched the vehicle
described in the tip, at an address that matched the location
provided in the tip, could be the same two men that had
been engaged in the violent argument described in the tip.
Nor was it unreasonable for the 911 caller, and then the
officers, to think that a man gripping a gun and arguing at
3:30 a.m. had engaged in criminal activity, or was about to.
Although the 911 dispatcher never warned the officers of an
impending shooting, he did not need to do so for them to have
reasonable suspicion. Police officers, of all people, know that
loud arguments and drawn guns don't mix well, and they could
reasonably conclude that those two ingredients were a recipe
for violent crime. The fact that the argument took place in a
high-crime area only underscored that suspicion. See Lewis,
674 F.3d at 1309 (relevant that the activity “took place at night
in a high crime area”).
The “absence of additional suspicious conduct” when the
police arrived did not “dispel the reasonable suspicion” of
criminal activity. Navarette, 572 U.S. at 403, 134 S.Ct. 1683.
That's no surprise; those engaged in criminal activity would
rationally be inspired to hide it at the first sign of police. See
id. It is thus hardly remarkable that Bruce was not wielding
a gun in a shouting match when the police arrived with their
flashing lights. And although the dissent finds it unreasonable
to conclude that both men would “agree to ‘press pause’ on
their hostilities and sit together in a car,” the dissent's take
misunderstands the persuasive power of a gun. Dissenting
Op. at 1125–26. Consider, for instance, a domestic-violence
victim or a hostage at gunpoint who has been ordered to act

naturally, or even to tell responding officers that everything
is okay. When officers arrived on the scene here, nothing
they saw undercut the reasonable suspicion they had already
formed based on the reliable 911 call. Not the movement of
the two men from outside to inside the car—a new position
that would make them less visible to the police—and not the
scene's apparent calm. If anything, those changes are entirely
consistent with a hostage-type situation.
So it is true that the officers did not see Bruce acting
unlawfully—but it is also true that they did not need to.
The Supreme Court has “firmly rejected the argument ‘that
reasonable cause for an investigative stop can only be
based on the officer's personal observation, rather than on
information supplied by another person.’ ” Id. at 397, 134
S.Ct. 1683 (punctuation omitted) (quoting Adams v. Williams,
407 U.S. 143, 147, 92 S.Ct. 1921, 32 L.Ed.2d 612 (1972)).
Apparently overlooking this holding, our dissenting
colleague's analysis, at its core, depends on accepting the very
rule that the Supreme Court has already rejected. For the
dissent, any reasonable suspicion of a violent altercation here
“should have dissipated when the officers arrived at the scene
and saw nothing of the sort.” Dissenting Op. at 1123. Under
that reasoning, however, Navarette would have come out
differently because the police did not see anything resembling
drunk driving. The dissent says that, unlike drunk driving,
an armed dispute “is not obviously disguisable.” Id. at 1124.
Respectfully, we disagree. If the drunk driver could have
driven safely and without exhibiting any signs of impairment,
we presume that the driver would have done so in the first
place. But the chemical impact of alcohol on the body is not
a mind-over-matter issue. Moving a few feet to sit in a car,
however, is easily handled; in fact, it would be a wise move
*1120 for someone attempting to avoid attention from the
police in the middle of the night. The Supreme Court's firm
rejection of a police-observation rule cannot be dodged so
easily.
The truth is that no one needed to see criminal activity:
reasonable suspicion “may be formed by observing
exclusively legal activity.” United States v. Harris, 526 F.3d
1334, 1337 (11th Cir. 2008) (citation omitted). And law
enforcement “need not rule out the possibility of innocent
conduct.” United States v. Arvizu, 534 U.S. 266, 277, 122
S.Ct. 744, 151 L.Ed.2d 740 (2002). Given the tip's reliability,
which has already been established, the officers were not
required to forget why they had been called to the scene.
Whatever innocent conduct could explain arguing, gun-in-

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Bruce, 977 F.3d 1112 (2020)
28 Fla. L. Weekly Fed. C 1975

hand, at 3:30 in the morning, does not negate the officers’
reasonable suspicion. They had “at least a minimal level of
objective justification” for stopping Bruce for investigative
purposes. Wardlow, 528 U.S. at 123, 120 S.Ct. 673.
Bruce objects that, even if the police reasonably suspected
that someone had committed a crime, they could not have
reasonably suspected that he was that someone. But it is not
as if police picked Bruce out of a crowded scene; when the
officers approached the area immediately after the tip, there
were only two people in the white car at the address given.
A less specific tip certainly might lead to a different result.
On these facts, though, the police had reasonable suspicion to
briefly hold both Bruce and his associate.
Once officers reasonably suspect crime, the reasonableness
of their “decision to stop a suspect does not turn on
the availability of less intrusive investigatory techniques.”
Navarette, 572 U.S. at 404, 134 S.Ct. 1683 (quoting United
States v. Sokolow, 490 U.S. 1, 11, 109 S.Ct. 1581, 104 L.Ed.2d
1 (1989)). To ignore that rule here would be “particularly
inappropriate” because of the “disastrous consequences”
posed by armed conflict. Id. It would leave officers with
only two constitutional options: avoid responding to the
emergency 911 call or approach the scene without tools to
control it.
Neither of these is required by the Fourth Amendment.
Waiting to see if the apparently dormant scene erupted with
gunfire or some other hostility would endanger the public
—including the other person in the car. And recall that the
officers were not sneaky in their approach; they showed up
with lights flashing, which would likely inspire a pause in
any criminal activity until they had abandoned the scene. So
waiting and watching was not a feasible approach under these
circumstances. On the other hand, approaching the white car
without at least limited authority to contain the potential threat
could risk the officers’ lives. As we have said in another
context, “the law does not require officers in a tense and
dangerous situation to wait until the moment a suspect uses a
deadly weapon to act to stop the suspect.” Long v. Slaton, 508
F.3d 576, 581 (11th Cir. 2007). In response to both of these
suggestions, our answer is the same: “We think the police
need not have taken that chance and hoped for the best.” Scott
v. Harris, 550 U.S. 372, 385, 127 S.Ct. 1769, 167 L.Ed.2d
686 (2007).
Sometimes tipster cases are close. But this one is not.
Reasonable suspicion “depends on the factual and practical

considerations of everyday life on which reasonable and
prudent men, not legal technicians, act.” Navarette, 572 U.S.
at 402, 134 S.Ct. 1683 (quotation marks and citation omitted).
Officers need not—and should not—turn a blind eye to
commonsense concerns of danger when responding to an
emergency 911 call. Nor *1121 should we when analyzing
the circumstances. See id. “Law enforcement officers are at
greatest risk when dealing with potentially armed individuals
because they are the first to confront this perilous and
unpredictable situation.” United States v. Gibson, 64 F.3d
617, 624 (11th Cir. 1995). The “very rationale underpinning
Terry—the protection of officer safety and the safety of others
nearby, especially from the dangers posed by firearms—
is presented by the facts of this case.” Lewis, 674 F.3d at
1309. The officers had reasonable suspicion to perform an
investigatory stop.

B.
Bruce advances one more argument—that the officers needed
probable cause, rather than reasonable suspicion, because
they stopped him on the curtilage of a home. The parties
debate whether Bruce actually reserved the right to appeal this
issue when he conditionally pleaded guilty, but we need not
decide that point. At the very least, Bruce failed to raise the
issue below, so he must—but cannot—establish plain error.
See Young, 350 F.3d at 1305.
Curtilage is an area near and closely associated with the home;
at the founding, it was considered part of the house for Fourth
Amendment purposes. See Collins v. Virginia, ––– U.S. ––––,
138 S. Ct. 1663, 1676, 201 L.Ed.2d 9 (2018) (Thomas, J.,
concurring) (citing 4 William Blackstone, Commentaries on
the Laws of England 225 (1769)). The most recent Supreme
Court case on the issue (and the one Bruce leans on to show
plain error) is Collins v. Virginia. There, the Court held that
the automobile exception to the Fourth Amendment does not
permit a police officer, “uninvited and without a warrant, to
enter the curtilage of a home in order to search a vehicle
parked therein.” Id. at 1668 (majority opinion). The decision
was limited though. As the Court explained, Collins was
materially different from a case in which the record did not
indicate any Fourth Amendment interest in the place where
the vehicle was parked and in which the record offered no
“determination that the driveway was curtilage.” Id. at 1674.
Those distinctions devastate Bruce's attempt to rely on
Collins. By his own admission, the “record does not disclose

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Bruce, 977 F.3d 1112 (2020)
28 Fla. L. Weekly Fed. C 1975

Mr. Bruce's relationship to the house” where he was stopped.
The record also lacks important detail needed to sort out if the
property was within anyone's curtilage. That question turns
on four fact-intensive inquiries: “(1) the proximity of the area
claimed to be curtilage to the home; (2) the nature of the uses
to which the area is put; (3) whether the area is included within
an enclosure surrounding the home; and, (4) the steps the
resident takes to protect the area from observation.” United
States v. Taylor, 458 F.3d 1201, 1206 (11th Cir. 2006). All
we know on appeal is the location where the white car was
parked, and that the area was not enclosed. We know nothing
about the other two factors. These sparse details are just not
enough.
In a last-ditch effort, Bruce asks us to remand for factfinding
on this issue. But doing so “would undermine the plain-error
doctrine,” which is designed to encourage parties to raise
issues in the district court. United States v. Cabezas-Montano,
949 F.3d 567, 592 (11th Cir. 2020). On the record before us,
then, Bruce has not established plain error.
***
Officers cannot stop people for no reason. Or for a bad
reason. But here, they had a very good reason—a reliable
tip describing an imminent gunfight. We will *1122 not ask
police to forget what they already know when they approach
a potential crime scene. A contrary decision would put not
only police, but the public in danger. Under the circumstances
here, it was reasonable for them to suspect Bruce of criminal
activity and to proceed with caution. We therefore AFFIRM.

MARTIN, Circuit Judge, dissenting:
This case asks us to decide whether officers violated Toddrey
Bruce's Fourth Amendment right to be free from unreasonable
seizures when they stopped him on the basis of an anonymous
tip. I agree with the majority's conclusion that under the
Supreme Court's ruling in Navarette v. California, 572 U.S.
393, 134 S. Ct. 1683, 188 L.Ed.2d 680 (2014), we must accept
the anonymous tip in this case as reliable. Maj. Op. at 1118.
But as the majority recognizes, id. at 1118–19, even when
we accept the tip as reliable, we must also assess whether
the police had the reasonable and particularized suspicion of
criminal activity necessary to justify an investigatory stop.
See Navarette, 572 U.S. at 401, 134 S. Ct. at 1690. To
the extent the anonymous tip here provided officers with
reasonable suspicion, it is my view that any such reasonable
suspicion should have dissipated upon the officers’ arrival at

the reported address. I therefore respectfully dissent from the
majority's opinion affirming the District Court's denial of Mr.
Bruce's motion to suppress.
While the majority's recitation of the facts is accurate, I
recount them briefly in order to highlight one important
matter. It is true, as the majority writes, that an anonymous
caller told a 911 operator that he witnessed an argument taking
place in the front yard of what he referred to as a “drug house.”
It is also true that the caller said the individuals arguing
“might be shooting any minute from now,” and warned the
operator that officers “have to be careful.” It is important to
our legal analysis to know, however, that the 911 dispatcher
did not relay any of these details to the officers who went
to the scene of the reported altercation. Rather, the officers
had only a barebones report from dispatch that there was
an “an argument in the front yard [of the reported address]
with a black male standing next to a white vehicle holding a
handgun.”
Dispatch's failure to give the officers the full details of the
anonymous tip is significant because we are required to judge
whether an officer has reasonable suspicion to conduct a stop
based on “the facts available to the officer at the moment of
the seizure or the search.” See United States v. Franklin, 323
F.3d 1298, 1301 (11th Cir. 2003) (quotation marks omitted);
see also United States v. Colon, 250 F.3d 130, 132, 138 (2d
Cir. 2001) (holding information provided by anonymous 911
caller to civilian operator but not provided to arresting officers
could not retroactively create reasonable suspicion). For that
reason, the question of whether the officers had reasonable
suspicion to stop Mr. Bruce must be determined based on
the following circumstances: (1) officers received a dispatch
concerning an “argument” in which one of the parties had a
gun and stood next to a white car; (2) the report was made in
the middle of the night, and concerned activity in a high-crime
neighborhood; and (3) when officers arrived at the reported
address, they saw two men sitting in the white car with the
headlamp on.
An investigatory stop “must be justified by some objective
manifestation that the person stopped is, or is about to
be, engaged in criminal activity.” United States v. Cortez,
449 U.S. 411, 417, 101 S. Ct. 690, 695, 66 L.Ed.2d 621
(1981). And in determining whether reasonable suspicion
exists, *1123 courts consider the “the totality of the
circumstances.” Id. Once reasonable suspicion is established,
it does not exist in perpetuity; rather, an investigative stop
must “cease once law enforcement's reasonable, articulable

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Bruce, 977 F.3d 1112 (2020)
28 Fla. L. Weekly Fed. C 1975

suspicions ... [are] allayed.” Croom v. Balkwill, 645 F.3d
1240, 1251 n.15 (11th Cir. 2011) (per curiam).
Had police, upon arriving at the reported address, observed
two people having an argument, with one of the parties
holding a gun, I would have no question that reasonable
suspicion would have justified an investigatory stop. See
United States v. Holloway, 290 F.3d 1331, 1337–38 (11th
Cir. 2002) (holding that emergency situations involving
endangerment to life provide probable cause for police
intervention). But when police arrived at the reported
address, they did not witness a violent argument or any
other emergency. No one was in the front yard causing
a disturbance, and no one stood next to the white car
brandishing a handgun. In fact, no one was standing
anywhere. The officers’ sole observation upon their arrival
was a white car, with two people inside, parked in the
driveway of the house. The officers did not testify to hearing
a commotion or other disturbance coming from the vehicle.
Nevertheless, the officers immediately initiated a stop by
getting out of their patrol cars and approaching the parked car
with their weapons drawn. 1
On these facts, even if dispatch's report gave the officers
reasonable suspicion that a violent altercation was ongoing
or imminent, any such reasonable suspicion should have
dissipated when the officers arrived at the scene and saw
nothing of the sort. See United States v. Watson, 900 F.3d
892, 896 (7th Cir. 2018) (holding that officers did not have
reasonable suspicion based on anonymous tip that “boys”
were “playing with guns” because when officers arrived and
observed only that “men were seated inside the identified
car with no guns in sight,” any concern about an emergency
“should have dissipated”). In fact, what these officers saw
upon arriving at the address should have suggested the
opposite of what was reported in the tip. The two men at the
scene were not fighting, but were instead sitting together in
a car.
The majority opinion holds the officers still had reasonable
suspicion upon arriving at the reported address. It recites the
principle that the absence of additional suspicious conduct
does not necessarily dispel reasonable suspicion. Maj. Op. at
1118–19. An accurate statement of the law, no doubt, but one
that begs the question, reasonable suspicion of what? In the
Supreme Court's Navarette decision, which the majority relies
on for this proposition, an anonymous tipster complained of
being driven off the road by another vehicle, thus causing
officers to have a reasonable suspicion that the other vehicle's

driver was intoxicated. Navarette, 572 U.S. at 403–04, 134
S. Ct. at 1691–92. When officers finally caught up to the
reported vehicle, they followed it for five minutes without
observing any driving irregularities. Id. at 403–04, 134 S. Ct.
at 1691. The Court held that the officers nevertheless had
reasonable suspicion because it was “hardly surprising” that
an intoxicated driver would operate his vehicle more carefully
while being followed by a marked police vehicle. Id. at 403,
134 S. Ct. at 1691. Here, by contrast, dispatch reported that
an argument was taking place, and one of the parties had
a gun. Unlike a drunk driver, who manages to conceal his
drunkenness *1124 for a period of time, an ongoing violent
conflict is not obviously disguisable.
The majority says my conclusion that reasonable suspicion
should have dissipated here is at odds with the rule that
reasonable suspicion need not be based on an officer's
personal observations. Maj. Op. at 1119–20 (citing Navarette,
572 U.S. at 397, 134 S. Ct. at 1688). Thus, the majority
contends, my analysis “at its core” is at odds with
Navarette. Maj. Op. at 1119–20. Respectfully, the majority
misunderstands my analysis, and overstates the holding in
Navarette. I do not suggest that reasonable suspicion cannot
be supplied by a third party, such as an anonymous tipster.
Indeed, I have assumed for the purposes of my analysis that
the tip here did furnish reasonable suspicion. See supra at
1123. But just as reasonable suspicion may be formed, it may
also be dispelled. Kansas v. Glover, 589 U.S. ––––, 140 S. Ct.
1183, 1191, 206 L.Ed.2d 412 (2020) (observing that, because
a stop must be “justified at its inception,” the “presence of
additional facts might dispel reasonable suspicion”). Contrary
to the suggestion of the majority opinion, Navarette did not
renounce this principle. While the Court held that operating a
vehicle carefully for a short time does not dispel reasonable
suspicion of drunk driving, it also explained that “[e]xtended
observation of an allegedly drunk driver might eventually
dispel a reasonable suspicion of intoxication.” Navarette, 572
U.S. at 403–04, 134 S. Ct. at 1691. And in my view, what
the officers observed here—unlike what the officer saw in
Navarette—should have dispelled any reasonable suspicion
of criminal activity. 2
The majority posits two hypothetical scenarios to explain why
two individuals sitting together in a car—without any sign
of argument—nevertheless provides reasonable suspicion of
an ongoing or impending violent conflict. The first is that
the officers might have believed that one of the people in
the car was a “domestic-violence victim.” Maj. Op. at 1119.
Had the tipster here reported a domestic violence incident,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Bruce, 977 F.3d 1112 (2020)
28 Fla. L. Weekly Fed. C 1975

and had dispatch relayed that information to the reporting
officers, the majority's hypothetical might have some force.
As our sister circuits have recognized, “domestic violence
comes and goes,” so the absence of violence does not exclude
its possible recurrence. See, e.g., United States v. McCants,
952 F.3d 416, 424 (3d Cir. 2020) (quotation marks omitted).
But that principle is irrelevant here, because *1125 neithe
the anonymous tip nor the dispatcher's communication even
hinted that the disturbance at issue involved a domestic
conflict.
Neither does the barebones report of an “argument” involving
a man with a handgun support the majority's second
hypothetical: that the men arguing on the front yard relocated
to the parked car because their confrontation evolved into
a hostage crisis. Maj. Op. at 1119. To start, the officers
never testified that they suspected a hostage situation, and the
government never argued as much in the District Court. And
even if they had, the notion that two people sitting together
in a car is really a hostage situation is precisely the type of
“hunch of criminal activity” that cannot support reasonable
suspicion. United States v. Perkins, 348 F.3d 965, 970 (11th
Cir. 2003) (quotation marks omitted); see also United States
v. Slocumb, 804 F.3d 677, 684 (4th Cir. 2015) (declining to
“use whatever facts are present, no matter how innocent, as
indicia of suspicious activity” (alteration adopted) (quotation
marks omitted)). 3
Finally, I disagree with the majority's suggestion that we
must find reasonable suspicion here or else officers facing
these circumstances will be left with the following dilemma:
“avoid responding to the emergency 911 call or approach the
scene without tools to control it.” Maj. Op. at 1120. These
officers had other options. For one, they could have observed
the car for some period of time to see if the occupants’
conduct gave rise to reasonable suspicion. The majority says
this option is not realistic for two reasons: (1) waiting until
the apparently dormant scene erupted with hostilities “would
endanger the public—including the other person in the car”;
and (2) because the officers “showed up with [their police]
lights flashing,” the people at the scene likely would have
“pause[d] ... any criminal activity.” Id. The former reason

is unpersuasive because, as I have set out above, nothing
the officers observed upon arriving at the reported address
should have suggested that a violent conflict was imminent.
The latter reason is unrealistic because the only “criminal
activity” reported by dispatch was an armed conflict, and it
is hardly reasonable to believe that the officers’ arrival would
have inspired the two men to agree to “press pause” on their
hostilities and sit together in a car.
Another option for the officers would have been to conduct
a consensual encounter, by approaching the vehicle and
questioning its occupants. The majority discounts this option
as well because law enforcement “are at greatest risk when
dealing with potentially armed individuals.” Maj. Op. at
1121 (quoting United States v. Gibson, 64 F.3d 617, 624
(11th Cir. 1995)). I don't take issue with that proposition,
but the mere presence of a firearm does not, by default,
give police the right to conduct an investigatory stop. In
Florida v. J.L., 529 U.S. 266, 120 S. Ct. 1375, 146 L.Ed.2d
254 (2000), the Supreme Court rejected a proposed “firearm
exception” to the reasonable suspicion rule. Id. at 272–73,
120 S. Ct. at 1379–80. It held that, although “[f]irearms
are dangerous, and extraordinary dangers sometimes justify
unusual precautions,” the *1126 rule allowing investigatory
stops on the basis of reasonable suspicion was designed
precisely to balance the majority's safety concerns with
the Fourth Amendment right to be free from unreasonable
searches and seizures. Id. at 272, 120 S. Ct. at 1379. I fear the
majority's conclusion that police could not have conducted a
consensual encounter here due to the potential presence of a
gun inches us ever closer to the “firearm exception” expressly
rejected in J.L.
For these reasons, I would reverse the District Court's decision
to deny Mr. Bruce's motion to suppress, and by extension,
vacate Mr. Bruce's conviction and sentence. I respectfully
dissent.
All Citations
977 F.3d 1112, 28 Fla. L. Weekly Fed. C 1975

Footnotes

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Bruce, 977 F.3d 1112 (2020)
28 Fla. L. Weekly Fed. C 1975

1

2

1
2

3

Reasonable suspicion would not have been enough for an arrest—that requires probable cause—but in his
opening brief, Bruce does not argue that he was arrested when police told him to step out of the white car.
Any challenge he had on that score has thus been abandoned, and we do not consider it. Access Now, Inc.
v. Sw. Airlines Co., 385 F.3d 1324, 1330 (11th Cir. 2004).
Although the unnamed tipster told the 911 operator that he was seeing the argument unfold, the record does
not reveal whether the operator explicitly passed that fact along to police. The district court considered the
details of the 911 call itself (rather than only the dispatch report) when determining that the call was reliable,
and Bruce did not question that approach in his opening brief. Because he did not protest that approach, any
challenge he might have made on that front “is deemed abandoned and its merits will not be addressed.”
Access Now, 385 F.3d at 1330.
The parties do not dispute that the officers initiated the stop when they approached the white car with their
weapons drawn.
As I've stated above, the circumstances of this case are distinguishable from Navarette because, while it
might be reasonable to think that a driver has masked his intoxication for a short time, it was unreasonable to
suspect that the parties here had concealed their armed conflict. The majority disagrees. It says drunk driving
is not disguisable because the impact of alcohol “is not a mind-over-matter issue,” whereas “[m]oving a few
feet to sit in a car ... is easily handled.” Maj. Op. at 1119. First, by characterizing drunk driving in this way,
the majority seems to endorse a view that the Court rejected in Navarette. Compare 572 U.S. at 403, 134
S. Ct. at 1691 (“It is hardly surprising that the appearance of a marked police car would inspire more careful
driving.”) with 572 U.S. at 413, 134 S. Ct. at 1697 (Scalia, J., dissenting) (“[T]he dangers of intoxicated driving
are the intoxicant's impairing effects on the body—effects that no mere act of the will can resist.”). Beyond
that, the majority's emphasis on how easy (or how difficult) it is to enter a car is misplaced. In determining
whether these officers still had reasonable suspicion upon arriving at the reported address, the question is
not whether the individuals described in the dispatch had the physical capability to enter a car. I assume
the answer is yes, since they had been reported to be standing next to the car. Instead, the question that
is relevant to our analysis is whether it was reasonable for arresting officers to suspect that two people in a
violent conflict decided to cease their hostilities and sit quietly together in a car. I think not.
The majority says that by rejecting its hostage and domestic-violence hypotheticals, I “misunderstand[ ] the
persuasive power of a gun.” Maj. Op. at 1119. To the contrary, I agree that guns may spell danger under
certain circumstances. However, the presence of a gun does not give courts license to conceive of any
possible scenario, however unsupported by the record, to find the reasonable suspicion necessary to justify a
search. Cf. Watson, 900 F.3d at 896 (“[A] mere possibility of unlawful use of a gun is not sufficient to establish
reasonable suspicion.” (quotation marks omitted)).

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

A-2

Case 1:17-cr-20530-RNS Document 21 Entered on FLSD Docket 12/05/2017 Page 1 of 7

United States District Court
for the
Southern District of Florida
United States of America, Plaintiff
v.
Toddrey Willie Bruce, Defendant

)
)
) Criminal Case No. 17-20530-CR-Scola
)
)

Order on Defendant’s Motion to Suppress Physical Evidence and
Statements
Defendant Toddrey Willie Bruce is charged with being a felon in
possession of a firearm and ammunition, in violation of 18 U.S.C. § 922(g)(1).
This matter is before the Court on the Defendant’s Motion to Suppress Physical
Evidence and Statements (ECF No. 17). The Defendant argues that the firearm
and ammunition recovered from the scene of his arrest and the subsequent
statements that he made while in custody should be suppressed because he
was illegally seized without a warrant.
The Court held an evidentiary hearing on the Defendant’s motion on
December 1, 2017. At the hearing, the Court heard the testimony of
Government witnesses David Espinosa and Tony Belle, Jr., both of whom are
officers with the Miami-Dade Police Department. The Court also reviewed a
video of the officers’ encounter with the Defendant that was recorded by
Espinosa’s body camera, as well as an audio recording of the 911 call to which
Espinosa and Belle were responding when they encountered the Defendant.
After considering the credible evidence and testimony and the relevant legal
authorities, and for the reasons more particularly set forth below, the motion to
suppress is denied (ECF No. 17).
1. Testimony
A. David Espinosa
Espinosa has been employed for just over one year as a uniformed road
patrol officer for the Miami-Dade Police Department. He previously served four
years in the U.S. Military and served as a military police officer. As a police
officer, he has responded to emergency calls hundreds of times and his primary
concerns when responding to such calls are the safety of the community and
officer safety.
On March 27, 2017 in the early morning hours, he responded to a
dispatch which was the result of a 911 call. The caller said there was a black

Case 1:17-cr-20530-RNS Document 21 Entered on FLSD Docket 12/05/2017 Page 2 of 7

male with a firearm engaged in an argument and the black male was standing
next to a white car in the driveway.
Espinosa is assigned to the Cutler Ridge area of Miami-Dade County.
That night he was patrolling the Perrine area, which is a relatively small area
within Cutler Ridge. Perrine is a high-crime area. Espinosa receives
approximately 30 calls per night in the Cutler Ridge area and 15 of those calls
– a disproportionate number – are from Perrine.
Espinosa arrived at the address provided by dispatch at 3:28 a.m.,
within a few minutes of the 911 call, and saw a white car with the interior light
on and two persons inside the vehicle. Espinosa had his firearm withdrawn as
a result of the nature of the call. Espinosa first approached the driver’s side of
the car and the driver complied with commands and exited the vehicle.
Espinosa and Office Price then approached the Defendant on the
passenger side of the car, and Espinosa activated his body camera. He had
forgotten to turn on the body camera when he approached the driver’s side of
the car. The Defendant had already exited the car and had his hands up.
Espinosa and Price explained that they were there due to a report of a man
with a gun. They ordered the Defendant to put his hands on the vehicle so a
pat-down could be conducted, but the Defendant refused. When Espinosa and
Price tried to put the Defendant against the vehicle, the Defendant struggled
and tried to push his way through the officers to flee. During the struggle, now
at the rear of the vehicle, a firearm fell out of his waistband onto the ground.
Espinosa’s body camera fell to the ground during the struggle and stopped
recording. The entire encounter with the Defendant, from the approach to the
struggle, took approximately 20 seconds.
The firearm was cleared to prevent accidental discharge. The Defendant’s
criminal history was run and it was learned that he was a convicted felon.
B. Tony Belle, Jr.
Belle has been a police officer with the Miami Dade Police Department for
over one year. He is presently a detective but was a patrol officer in March
2017. While a patrol officer, he responded to hundreds of 911 calls. His
primary concerns when responding to such calls are safety and determining
how to react. When there is a call relating to a firearm, officer safety and the
safety of others is a concern.
On March 27, 2017, in the early morning hours, he received a dispatch
referencing two males standing next to a white car in front of a house arguing
and one was armed with a firearm. Belle believes it was a white Nissan. Belle
arrived at the address four to five minutes later. Belle’s lights were activated on
the patrol car but not his siren.

Case 1:17-cr-20530-RNS Document 21 Entered on FLSD Docket 12/05/2017 Page 3 of 7

Out of the large geographic area that Belle patrols, the Perrine area is
relatively small but makes up for almost 50% of dispatches. Perrine is a
geographically small area but is a high-crime area with lots of dispatches.
There are many robberies and drug crimes and it is patrolled to deter crime.
When Belle arrived at the address to which he was dispatched, there was
a white car parked on the grassy area near the street. Belle drew his weapon
for officer safety based upon the nature of the call and approached the vehicle
on the driver’s side. Belle ordered the driver to exit the vehicle and he complied.
Belle told the driver that they were responding to a call about an argument
involving a gun. Belle patted down the driver, who had no weapons, and
directed him to sit on the ground. Two other officers approached the passenger
side of the vehicle.
Belle heard the other officers dealing with the Defendant and heard that
the Defendant was refusing to comply with their commands. When the
Defendant started to actively resist and tried to run between the two officers,
Belle headed to the passenger side of the car. Belle grabbed the Defendant and
redirected him to the ground. During the course of taking the Defendant to the
ground, a firearm came out of his waistband and fell on the ground.
The firearm was secured and the Defendant was handcuffed and placed
in the back seat of Belle’s patrol car. A search of the Defendant’s criminal
record revealed he was a convicted felon and was on probation for burglary.
The firearm was also reported stolen.
2. Findings of Fact
On March 27, 2017, sometime after 3:00 a.m., a man called 911 to
report a disturbance, and stated that there might be shooting. The caller stated
that there was an argument in the front yard of a house that he identified as a
drug house and rooming house. The caller stated that he saw a black male
wearing black clothing standing next to a white car in front of the house. The
caller stated that “they are arguing” and stated that he saw the man holding a
gun. He told the 911 dispatcher that the officers should be careful. The caller
stated that he did not wish to be contacted by officers because he had to get up
early.
Within four or five minutes, three officers arrived at the address provided
by the caller, which was in the Perrine neighborhood. Officers Espinosa and
Belle both testified that Perrine is known as a high-crime neighborhood, and
that approximately 50% of the dispatches they receive from 911 calls on any
given night are in Perrine, despite the fact that Perrine is a small geographic
area relative to the entire area that they are responsible for patrolling.
The officers saw a white car parked in front of the house with the interior
light on and two persons inside. The officers approached the driver’s side of the

Case 1:17-cr-20530-RNS Document 21 Entered on FLSD Docket 12/05/2017 Page 4 of 7

car with their firearms drawn. The driver complied with the officers’ commands
and exited the vehicle. Officer Belle frisked the driver, found no weapons, and
directed him to sit on the ground.
Meanwhile, Officers Espinosa and Price still had their weapons drawn
and were approaching the Defendant on the passenger side of the car. The
Defendant was standing next to the car with his hands up. The officers
explained that they were there due to a report of a man with a gun. They
ordered the Defendant to put his hands on the vehicle so a pat-down could be
conducted, but the Defendant refused. When Officers Espinosa and Price tried
to put the Defendant against the vehicle, the Defendant struggled and tried to
push his way through the officers. Officer Belle grabbed the Defendant and
redirected him to the ground. During the struggle, a firearm fell out of the
Defendant’s waistband onto the ground.
The firearm was secured and the Defendant was handcuffed and placed
in the back seat of Belle’s patrol car. A search of the Defendant’s criminal
record revealed he was a convicted felon and was on probation for burglary.
3. Analysis
“The proponent of a motion to suppress has the burden of establishing
that his own Fourth Amendment rights were violated by the challenged search
or seizure.” Rakas v. Illinois, 439 U.S. 128, 132 n.1 (1978) (citations omitted).
However, if a defendant provides evidence of a “warrantless search and seizure,
the burden of proof as to the reasonableness of the search rests with the
prosecution. The Government must demonstrate that the challenged action
falls within one of the recognized exceptions to the warrant requirement,
thereby rendering it reasonable within the meaning of the fourth amendment.”
United States v. Freire, 710 F.2d 1515, 1519 (emphasis in original) (internal
citation omitted).
The Defendant argues that he was seized the moment he exited the
vehicle, and that the seizure was illegal because it was not supported by
probable cause or a reasonable articulable suspicion. (Mot. 3-4.) However, the
Government argues that the encounter was an investigatory stop, rather than
an arrest, and that the stop was supported by reasonable suspicion. (Resp. 48, ECF No. 19.) “[L]aw enforcement officials may briefly detain a person as part
of an investigatory stop if they have a reasonable articulable suspicion based
on objective facts that the person has engaged in criminal activity.” U.S. v.
Blackman, 66F.3d 1572, 1576 (11th Cir. 1995) (citing United States v. DiazLizaraza, 981 F.2d 1216, 1220 (11th Cir. 1993)). In determining whether a
seizure is an arrest or a stop, courts analyze four factors: (1) the law
enforcement purposes served by the detention; (2) the diligence with which the
police pursued their investigation; (3) the scope and intrusiveness of the

Case 1:17-cr-20530-RNS Document 21 Entered on FLSD Docket 12/05/2017 Page 5 of 7

detention; and (4) the duration of the detention.” U.S. v. Fields, 178 Fed. Appx.
890, 893 (11th Cir. 2006) (citing U.S. v. Acosta, 363 F.3d 1141, 1146 (11th Cir.
2004)).
With respect to the first factor, “the most important consideration is
whether the police detained the defendant to pursue a method of investigation
that was likely to confirm or dispel their suspicions quickly, and with a
minimum of interference.” Acosta, 363 F.3d at 1146 (internal quotations,
citations, and alterations omitted). With respect to the second factor, courts
analyze “whether the methods the police used were carried out without
unnecessary delay.” Id. (citations omitted). Here, the officers acted quickly to
pursue a method of investigation that was likely to confirm or dispel their
suspicions and they acted without unnecessary delay. Officer Belle completed
his entire confrontation of the driver of the car, including ordering him to exit
the car, explaining the nature of the stop, and patting down the driver, before
the Defendant even began resisting Officers Espinosa and Price. The
confrontation between the Defendant and the officers lasted approximately
twenty seconds.
With respect to the third factor, courts analyze “whether the scope and
intrusiveness of the detention exceeded the amount reasonably needed by
police to ensure their personal safety.” Acosta, 363 F.3d at 1146 (citations
omitted). If officers possess “an articulable and objectively reasonable belief
that the suspect is potentially dangerous,” they “may take reasonable steps to
ensure their safety.” Id. at 1146-47 (internal quotations and citations omitted).
The fact that an officer draws his weapon does not automatically transform an
investigatory stop into an arrest; rather, it is a factor to be taken into account
in determining whether the encounter was an investigatory stop or an arrest.
Id. at 1147 (citations omitted). As more fully set forth below, the officers had a
reasonable belief that the Defendant was potentially armed. Moreover, the
scope and intrusiveness of the detention did not exceed the amount needed by
the officers to ensure their personal safety.
The Defendant was unquestionably seized when he was ordered to exit
the car at gunpoint. However, based on the foregoing analysis, the Court
concludes that the encounter was a brief, investigatory stop rather than an
arrest.
The Court also concludes that the stop was supported by reasonable
suspicion. “When evaluating whether reasonable suspicion exists . . . the
district court must examine the totality of the circumstances to determine
whether the arresting officer had a particularized and objective basis for
suspecting legal wrongdoing.” Fields, 178 Fed. Appx. at 892 (internal
quotations and alterations omitted). Reasonable suspicion “may be based on
information supplied by another person, so long as the information bears

Case 1:17-cr-20530-RNS Document 21 Entered on FLSD Docket 12/05/2017 Page 6 of 7

sufficient indicia of reliability.” Id. (citing Adams v. Williams, 407 U.S. 143
(1972)).
However, “even a reliable tip will justify an investigative stop only if it
creates reasonable suspicion that ‘criminal activity may be afoot.’” Navarette,
134 S.Ct. at 1690 (citing Terry v. Ohio, 392 U.S. 1, 30 (1968)). The Eleventh
Circuit has “found a defendant’s presence in a high crime area and his nervous
or evasive behavior are relevant factors in determining reasonable suspicion.”
Fields, 178 Fed. Appx. at 892 (citations omitted); see also U.S. v. Lewis, 674
F.3d 1298, 1309 (11th Cir. 2012) (“We add that the detention took place at
night in a high crime area, which, while surely not dispositive, is still another
relevant consideration in the Terry calculus.”) (citations omitted). In addition,
the Eleventh Circuit has recognized that “[l]aw enforcement officers are at
greatest risk when dealing with potentially armed individuals . . . A law
enforcement officer ‘responding to a tip involving guns may take these hazards
into consideration when balancing the suspect’s interests against the need for
law enforcement officers to protect themselves and other prospective victims of
violence.’” U.S. v. Gibson, 64 F.3d 617, 624 (11th Cir. 1995) (quoting United
States v. Clipper, 973 F.2d 944, 951 (D.C. Cir. 1992)).
The Defendant argues that the facts here are most similar to Florida v.
J.L., in which an anonymous caller reported to the police that a black male
wearing a plaid shirt standing at a particular bus stop was carrying a gun. 529
U.S. 266, 268 (2000). The Supreme Court held that “the bare report of an
unknown, unaccountable informant who neither explained how he knew about
the gun nor supplied any basis for believing he had inside information about
the [defendant]” was insufficient to create a reasonable suspicion of unlawful
conduct. Id. at 271. However, in Navarette v. California, the Supreme Court
noted that a report that is contemporaneous with the observation of criminal
activity “has long been treated as especially reliable.” Navarette v. California,
134 S.Ct. 1683, 1689 (2014). There, a 911 caller reported being run off the
road by another car. Id. at 1686-87. The Court stated that eyewitness
knowledge of the alleged activity “lends significant support to the tip’s
reliability.” Id. (citations omitted). In addition, the Court noted that a caller’s
use of the 911 emergency system is “[a]nother indicator of veracity,” because a
911 call can be recorded and traced, and a false report can be prosecuted. Id.
at 1689-90.
Here, the 911 call was placed around 3:00 a.m. in a high crime area. The
caller contemporaneously provided information to the 911 dispatcher as he was
observing the Defendant. He included details such as the fact that the house in
front of which the car was parked was a rooming house that was associated
with narcotics. He stated that a disturbance was taking place and stated that
there “might be shooting” soon. He also described a black male with black

Case 1:17-cr-20530-RNS Document 21 Entered on FLSD Docket 12/05/2017 Page 7 of 7

clothing standing next to a white vehicle that was parked in front of the
rooming house. He told the dispatcher that he saw the black male holding a
gun and asked the dispatcher to tell the officers to use caution. The officers
arrived at the house within four or five minutes and found the white car parked
on the lawn as described by the caller. The Defendant refused to comply with
officers’ orders and physically resisted the officers when they attempted to
place his hands on the car. Although it is a close question, the Court finds that
the facts of this case are more closely analogous to Navarette than J.L. and
that, based on the totality of the circumstances, the officers had reasonable
suspicion to conduct an investigative stop.
4. Conclusion
The temporary investigative stop of the Defendant was supported by
reasonable suspicion. Accordingly, the Court denies the Defendant’s motion to
suppress (ECF No. 17).
Done and ordered at Miami, Florida on December 5, 2017.
________________________________
Robert N. Scola, Jr.
United States District Judge

